<html>
<title> - MILITARY AND OVERSEAS VOTING IN 2012</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                  MILITARY AND OVERSEAS VOTING IN 2012
=======================================================================

                                HEARING

                               BEFORE THE
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

               HELD IN WASHINGTON, DC, NOVEMBER 20, 2013

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                    U.S. GOVERNMENT PRINTING OFFICE
86-539                        WASHINGTON : 2014
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  





                       Available on the Internet:
                             www.fdsys.gov
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                 Kyle Anderson, Minority Staff Director

 
                  MILITARY AND OVERSEAS VOTING IN 2012

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:40 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Rokita, Brady, and Vargas.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Salley Wood, Communications Director and Deputy Staff 
Director; Bob Sensenbrenner, Senior Counsel; Kyle Anderson, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Matt Defreitas, Minority Professional Staff; Khalil 
Abboud, Minority Deputy Counsel; Thomas Hicks, Minority Senior 
Counsel; Mike Harrison, Minority Chief Counsel; Greg Abbott, 
Minority Professional Staff; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I would now call to order the Committee on 
House Administration hearing on military and overseas voting in 
2013. And the hearing record will remain open--or, excuse me, 
for the election year of 2012.
    The hearing record will remain open for 5 legislative days 
so that Members may submit any materials that they wish to be 
included therein.
    And, again, a quorum is present, so we can proceed.
    First of all, I want to thank all my fellow committee 
members for being here today to discuss military and overseas 
voting.
    Every one of the brave men and women who serve our Nation 
in uniform across the globe has volunteered for the job. This 
is a total volunteer military. And they volunteer because they 
believe in our democracy, they believe in freedom, and they are 
willing to sacrifice so greatly to ensure that freedom and 
liberty are always protected.
    And yesterday, as we all know, actually marked 150th 
anniversary of the Gettysburg Address. And in closing that 
address, President Abraham Lincoln said, ``It is rather for us 
to be here dedicated to the great task remaining before us, 
that from these honored dead we take increased devotion to that 
cause for which they gave the last full measure of devotion, 
that we here highly resolve that these dead shall not have died 
in vain, that this Nation, under God, shall have a new birth of 
freedom, and that the government of the people, by the people, 
for the people shall not perish from the Earth.''
    And I mentioned this because the entire concept--I think 
this is an interesting thing to note--the entire concept of 
absentee voting was actually established at that time by the 
States, with cooperation of the Federal Government, to make 
certain that Union soldiers would be able to cast ballots in 
the Presidential election of 1864. It was the first time our 
Nation used absentee balloting.
    And I am sure that it was a challenge for the States, it 
was a challenge for the Federal Government and the military, 
but it got done. And so, certainly, we should make no less an 
effort today for our military.
    Those who have worn the uniform of our Nation in defense of 
freedom and of liberty have made certain that government of the 
people, by the people, and for the people has not perished. In 
fact, it has thrived. And, today, all in our society, 
regardless of their race or sex or creed, are able to fully 
participate in our government due in large measure to their 
devotion.
    And as a representative here of the American people, and 
particularly those of us who serve on this committee, we have a 
solemn duty to ensure that our troops, those who protect our 
freedom, have the ability to vote and to participate in the 
democratic process for which they are so willing to risk their 
life.
    And it is also the solemn responsibility of our witnesses 
here today and one that I know they take very, very seriously, 
as well. And so, to our witnesses, I certainly want to express 
our gratitude to both of you for your service and dedication to 
fair and open and free and accurate and inclusive electoral 
processes.
    And as a former Michigan Secretary of State, I am very 
aware of the challenges each State election officer faces when 
trying to improve voting access for their military 
constituencies who are serving overseas. Myself and Mr. Rokita, 
as well, as a former Secretary, very familiar with the 
challenges of processing absentee requests and transmitting 
ballots overseas and, unfortunately, discarding overseas 
ballots that arrived after the State deadlines, as well, which 
happens far too often. However, it has been a decade since I 
have been the Secretary of State, and we have seen some 
fantastic advancements in technology as well as at the State 
and Federal level with their procedures.
    For the second consecutive Presidential election, we have 
seen reports that show that military personnel are registering 
to vote at rates 15 to 17 percentage points higher than the 
overall civilian population. Similar reports also indicate that 
the percentage of military personnel who voted slightly 
increased from 2008 to 2012. These figures, I think, tell us 
two things: one, that our military personnel want to vote; and, 
two, that we are slowly improving their ability to vote.
    And with the combined efforts of the Federal Voting 
Assistance Program administered by the Department of Defense, 
various State initiatives, and Federal legislation, as well, 
aimed at supporting both, we have really seen greater 
participation amongst military voters.
    The Military and Overseas Voter Empowerment Act, known as 
the MOVE Act, was the first major piece of legislation aimed at 
facilitating overseas voting since 1986. And it was designed to 
advance DOD and State initiatives in three ways: First, it 
required that all military overseas ballots be sent at least 45 
days before an election. And this was intended to address 
ballots being discarded because they were arriving, as we said, 
after the State deadlines. Second, it required the Department 
of Defense to install voting assistance offices at every 
military installation to assist servicemembers with their 
registration and absentee requests. And, finally, it provided 
grants for States to improve or to adopt programs that 
electronically transmitted ballots to our soldiers overseas.
    In 2012, 3 years after its adoption, I believe that we have 
seen success of the legislation, and we have identified areas, 
as well, where there is still room for improvement. The largest 
room is always the room for improvement.
    For example, since the MOVE Act grant program started, 
which has provided, as we say, over 40 States and local 
counties with $35 million, we have seen a significant increase 
in the number of States that are adopting and testing 
procedures that allow servicemembers to access their blank 
ballots online, significantly expediting the process of voting 
from overseas.
    And we have also heard valid concerns about the 
legislation's requirement that the DOD outfit every 
installation, even the most remote, with voting assistance 
representatives--a costly burden that could perhaps be 
satisfied with more timely, cost-effective methods like social 
media.
    So, today, we will hear from our witnesses about their 
unique experiences and observations related to the 
implementation of the MOVE Act, as well.
    Unfortunately, due to a family issue, the Michigan 
Secretary of State, Ruth Johnson, who was also going to be one 
of our witnesses today, was not able to be here. However, we 
have received and reviewed her testimony, which will be--her 
full testimony will be submitted into our hearing record.
    And I certainly want to acknowledge the great work that she 
has done for the State of Michigan. Particularly, I am 
impressed with her work as cofounder of Operation Our Troops 
Count, which is a program dedicated to ensuring that military 
voters overseas have the ability to vote.
    And I know that last September both Secretary Johnson and 
Secretary Miller participated in a bipartisan delegation to the 
Middle East to meet with our troops. I will be interested to 
hear a little bit about your experiences there, Secretary.
    Again, I just want to thank our witnesses for being here. I 
look forward to discussing this very important issue and to 
hearing about their observations, both domestically and abroad 
as well.
    And, at this time, I would like to recognize the ranking 
member of the committee, Mr. Brady, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman.
    And I want to thank the chairman for calling this very 
important hearing.
    I would also like to congratulate Mr. Boehmer for moving 
from active head of the Federal assistance program to 
officially becoming the director, I think.
    Mr. Boehmer. Thank you.
    Mr. Brady. Last week, we celebrated Veterans Day. On that 
day, we acknowledged the sacrifice members of our Armed Forces 
make to protect our rights. It is only fitting that this 
committee do its part to make sure that they are not 
sacrificing their own fundamental right, the right to vote.
    Some of the important questions continue to be: What role 
has technology placed in assisting our military and overseas 
voters? How are the Department of Defense and the Federal 
Voting Assistance Program working together to ensure that all 
Americans are guaranteed the right to vote? What would allow 
secretaries of State to streamline this process?
    Ensuring the voting rights of all eligible Americans is 
this committee's most important obligation. In the next session 
of this Congress, I look forward to working with Chairman 
Miller as we work to expand and intensify our efforts to uphold 
that responsibility. We must begin to address this litany of 
bills referred to us that are designed to improve our electoral 
process. The Voter Empowerment Act, introduced in the last two 
Congresses, addresses everything from the registration process 
to modernization to improving the Election Assistance 
Commission.
    I thank again the chairman for calling this meeting. I look 
forward to hearing from our witnesses.
    The Chairman. I thank the gentleman very much.
    Any other opening statements?
    Dr. Gingrey.
    Mr. Gingrey. Madam Chairman, I want to thank you for 
calling this important hearing on military and overseas voting 
in the 2012 election and particularly the effectiveness of the 
Military and Overseas Voting Empowerment Act, MOVE.
    I would also like to welcome our witnesses, Nevada's 
Secretary of State, Ross Miller, and Matt Boehmer, as Mr. Brady 
said, the recently appointed director of the Federal Voting 
Assistance Program.
    Congratulations, Mr. Boehmer.
    In December of 2009, the MOVE Act was enacted to address 
shortcomings in the voting process for military and, of course, 
overseas citizens and to enhance the use of available 
technology to facilitate their voting. Today's hearing provides 
the opportunity to take stock of the successes and issues with 
the MOVE Act in the 2012 elections and to determine how we can 
better promote voting by servicemembers, their dependents, and, 
of course, the lesser number of citizens living overseas.
    The right to vote--and Mr. Brady said this so well--the 
right to vote is a fundamental freedom. It is imperative that 
we ensure that Americans, no matter where they are in the 
world, that they have the opportunity to have their voices 
heard on Election Day.
    And I, too, believe that it is particularly critical to 
provide our service men and women with the chance to vote. 
These men and women are on the front lines; they are protecting 
our freedoms. It is critical to preserving, indeed, our very 
way of life. And in return, we owe them. We, indeed, owe them 
an effective electoral system that protects their right and 
ability to vote in the very system which they are fighting to 
safeguard.
    Georgia is home, my State, to several military 
installations, including Fort Benning, Warner Robins Air Force 
Base, Fort Gordon, Dobbins Air Reserve Base in my district, to 
just name a few. And, as such, the issue of military voting 
hits particularly close to home for me. Those willing to die 
for our freedoms deserve the chance to participate in a 
democratic republic.
    And I am hopeful that this hearing will highlight progress 
in giving a voice to military and overseas voters, but also 
show us how we can improve the process to make it easier and 
more efficient for our citizens across the globe to participate 
in our elections. We must ensure that FVAP, States, and 
localities are making the most effective use of the limited 
resources and that our citizens are aware of the tools and 
resources that are available.
    And so I am grateful for the chance to hear from our 
witnesses today about how we can help FVAP to fulfill its 
mission, increase compliance with the MOVE Act without creating 
any undue burden on our States and localities, and ensure that 
those overseas know that their vote will count.
    Thank you, Madam Chairman. I yield back.
    The Chairman. Thank you very much, Dr. Gingrey.
    And before I introduce our two witnesses and ask for their 
testimony, I would ask unanimous consent to enter into the 
record the written testimony from Michigan's Secretary of 
State, Ruth Johnson, and the report produced by the Secretaries 
of State who visited the Middle East, ``Military and Overseas 
Voters 2012: Observations and Recommendations by a Delegation 
of State Chief Elections Officers.''
    Without objection, entered into the record.
    [The statement and report of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Any other opening statements?
    I would like now to take some time to introduce more 
formally our two witnesses.
    First, we are going to hear from Secretary of State Ross 
Miller. Secretary Miller, from Nevada, was president of the 
National Association of Secretaries of State in 2012. He is a 
former criminal prosecutor; elected Nevada's Secretary of State 
in 2007. And as the State's chief election officer, his 
accomplishments include the multi-jurisdictional Elections 
Integrity Task Force and Aurora, Nevada's searchable campaign 
finance database. As Secretary, he led the election fraud 
investigation into ACORN in Nevada, which led to criminal 
charges against the organization. And he also participated in 
the FVAP Middle East observation mission in 2012.
    And Matt Boehmer recently was selected as permanent 
director, as has been mentioned, of the Federal Voting 
Assistance Program after serving as an acting director since 
January. And in his capacity as the director, he administers 
the Federal responsibilities of the Uniformed and Overseas 
Citizens Absentee Voting Act. The act covers the voting rights 
of uniformed services personnel, their eligible family members, 
and all U.S. citizens residing outside of the United States. He 
has worked in the Office of the Under Secretary of Defense for 
Personnel and Readiness since 1991. Previously, he was director 
of Joint Advertising, Market Research, and Studies and worked 
at the Defense Manpower Data Center and the Defense Human 
Resource Activity.
    And, with that, the chair would now again welcome and 
recognize the Secretary of State from Nevada, Ross Miller.

STATEMENTS OF THE HON. ROSS MILLER, SECRETARY OF STATE, NEVADA; 
 AND MATT BOEHMER, DIRECTOR, FEDERAL VOTING ASSISTANCE PROGRAM

               STATEMENT OF THE HON. ROSS MILLER

    Mr. Miller. Thank you, Chairman Miller, Ranking Member 
Brady, and members of the committee.
    For the record, Ross Miller, Nevada Secretary of State.
    I want to thank you for the opportunity to be here today to 
discuss military and overseas voting procedures and issues and, 
in particular, how they are addressed in my home State of 
Nevada.
    In Nevada, we have a strong military presence, most notably 
the Fallon Naval Air Station in the northern part of the State 
and Nellis Air Force Base in the south. This is an issue that I 
care deeply about since I have been Secretary of State, when I 
was elected in 2007. I have made it a significant priority to 
try to enhance the system so that we can ensure that the 
military ballots are transmitted in a timely manner, and I 
think we have made significant progress.
    Just to note, in the last 2012 election, Nevada transmitted 
6,449 ballots to those covered voters, and 96 percent of those 
ballots were returned. Only 265 were not counted for various 
reasons.
    That said, there is clearly room for improvement. Most 
noteworthy, perhaps, is the fact that 42 percent of Nevada's 
military and overseas ballots were requested after the 45-day 
MOVE Act deadline. That number is clearly too high. It 
indicates that many unregistered UOCAVA voters had not 
indicated their UOCAVA eligibility prior to that deadline. And 
it indicates that many UOCAVA voters who did not request a 
ballot for the primary would have automatically--who then would 
have automatically received the general election ballot by the 
45-day deadline.
    Despite the progress that we have made, I want to point out 
a significant initiative, and that was an overseas trip that 
Chairman Miller referenced. It included a bipartisan delegation 
of Secretaries of State--three Republicans, two Democrats. We 
traveled to Kuwait, Qatar, and Bahrain in a trip that was 
sponsored by the Department of Defense in which FVAP 
accompanied us in an effort to try to come up with some 
recommendations and to survey how this process was coming.
    Overall, it was very productive. And at the outset, I will 
note that the military personnel that are overseeing the 
process of ensuring that those ballots get to our troops in 
time are doing significant work. They made it clear throughout 
process that the transmission of ballots is the highest 
priority. As they said over and over again, ballots go before 
beans and bullets, in terms of the transportation of assets.
    FVAP is also doing an outstanding job. In every base that 
we visited and every troop that we talked to, their outreach 
efforts were significant. And, clearly, the troops were aware 
of the things that they were doing in order to make sure that 
they got the ballots.
    That said, we do have a few recommendations that I want to 
explore with you.
    The first is that we heard time and time again that the 
preferred method from our troops, in order to receive the 
ballots, is that they be able to receive the ballots 
electronically and then transmit them.
    There is a little bit of a history to this that some of the 
Members may remember. Not so long ago, Secretaries of State 
across the country changed the legislation in order to allow 
for ballots to be transmitted by fax. That wasn't working too 
well because in many forward operating bases they don't have 
access to fax machines. We then took an additional step and 
allowed those ballots to be transmitted by email. That makes it 
more convenient, but it still requires them to print out the 
ballot and scan it and send it back. And in many of those 
instances, they don't have access to a scanner.
    And so the recommendation that we came forward with was to 
explore the use of a Common Access Card to enable the 
electronic transmission of absentee ballots. This is a card 
that members of the military are familiar with. It provides a 
level of security that, at least in Nevada, we are comfortable 
with. And so we moved forward with legislation to allow that to 
happen. We can transmit the ballot to them electronically, they 
can fill it out electronically, and transmit it. It is a much 
more streamlined process, and I think it will make the process 
much more efficient for members of the military.
    The second recommendation that this bipartisan group came 
up with is to enhance efforts to provide individualized content 
to absentee voters, direct-to-the-voter assistance.
    FVAP currently retains an online portal where they direct, 
through wizard technology, the information that any military 
overseas voter would need in terms of timelines, basic 
procedures in certain States. The feedback that we heard was 
that the system is easy to use and has been well received by 
absentee voters, but it is nevertheless cumbersome because it 
requires an affirmative commitment by that individual voter to 
seek out that information.
    The recommendation that we have is to seek out ways to 
communicate jurisdiction-specific information directly to the 
voter in an individualized communication. There are a couple of 
barriers that are outlined in our report to potentially doing 
that, but we think it should be explored.
    And, finally, the final recommendation is to enhance 
coordination with the Military Postal Service and State and 
local election offices.
    The military postal system operates a very sophisticated 
system in order to track where ballots are in the process and 
transmit that information to the appropriate resources. Funding 
was made available in 2010 in order to enhance State systems to 
be able to further track those ballots, but the common 
complaint that we heard from military personnel is, if they 
filled out their forms and they completed the basic 
requirements, oftentimes there was no confirmation, and so they 
weren't aware whether or not that request had been received in 
a timely manner. We think that by moving towards further 
communication with the military system and State and local 
election officials, that could clearly be enhanced.
    And then, additionally, the administration of absentee 
ballots could be further enhanced by better integrating the 
military postal systems and those of State and local election 
offices. The Automated Military Postal System, often referred 
to as AMPS, logs valuable data. And if that information were 
shared with State and local election offices, it would clearly 
help the efficiencies in maintaining the election.
    That said, we obviously have provided a copy of the full 
report to the committee, and we welcome any questions that you 
may have.
    The Chairman. Thank you very much. We appreciate that 
testimony.
    [The statement of Mr. Miller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The chair now recognizes Mr. Boehmer for his 
testimony.

                   STATEMENT OF MATT BOEHMER

    Mr. Boehmer. Thank you.
    Chairman Miller, Ranking Member Brady, and distinguished 
members of the committee, thank you for the opportunity to 
discuss the Federal Voting Assistance Program and its mission 
to ensure that uniformed services personnel, their eligible 
family members, and our overseas citizens are aware of their 
right to vote and have the tools and resources they need to do 
so from anywhere in the world.
    As Congress and the courts have repeatedly affirmed, voting 
is a citizen's most fundamental right. Recognizing military and 
overseas voters face unique challenges participating in U.S. 
Elections, Congress created a set of protections to make voting 
in Federal elections easier and more accessible, which are 
codified in the Uniformed and Overseas Citizens Absentee Voting 
Act. This year, we put forward recommendations to further 
strengthen these safeguards for military and overseas voters.
    In fulfilling our responsibilities under the law, the 
Federal Voting Assistance Program is committed to two voting 
assistance tenants: promoting the awareness of the right to 
vote and eliminating barriers for those who choose to exercise 
that right.
    At FVAP, we provide assistance every day. Voters seeking 
assistance find a myriad of resources available, including an 
expertly staffed call center, well-trained voting assistance 
officers, and a robust Web site at fvap.gov, where voters can 
find intuitive online tools to help them complete their voter 
registration, ballot application forms, as well as the backup 
ballot. We also work with State and local election officials, 
such as Secretary Miller, ensuring they are aware of the law's 
requirements and helping them serve our military and overseas 
citizen voters.
    In 2012, FVAP made great strides to improve processes, 
programs, and our tools. As detailed in our post-election 
report to Congress, FVAP launched several new voting 
initiatives and executed an aggressive communication and media 
engagement plan to promote the awareness of our resources 
available to our military and overseas citizen voters.
    Our post-election survey data revealed that when 
servicemembers use one of the Department's resources, they are 
more likely to return their ballot. However, data also show us 
that we need to do more to raise awareness of these voting 
resources provided by FVAP. It is my personal goal, as the new 
director of FVAP, to ensure that we accomplish this. I have 
spent my career in the Department of Defense working to 
strengthen the all-volunteer force, and I am honored now to 
work to enhance the voting ability for those who defend that 
very freedom.
    For the 2014 election cycle, we are expanding several key 
outreach efforts and launching some new initiatives to raise 
awareness of our voting resources. Specifically, FVAP is 
developing new public service announcements aimed at our 
overseas citizens and military spouses. We are providing 
customized digital toolkits to our voting assistance officers, 
election officials, advocacy organizations, and overseas 
companies with a large number of U.S. citizen employees. We are 
also targeting our younger population with an integrated 
communications plan leveraging social media and mobile devices.
    Military members are consistently registered to vote at a 
rate equal to or greater than that of the general population. 
But registration isn't the end of the story. As you know, 
servicemembers are an especially mobile population, and keeping 
up-to-date contact information on file at the appropriate 
election office is an ongoing challenge.
    To overcome this obstacle, FVAP is working on two new 
initiatives to automate address updates and inform 
servicemembers proactively to notify their election official of 
any new address. I look forward to keeping you up to date on 
the progress of these efforts throughout 2014.
    The pace at FVAP hasn't slowed since the 2012 election, and 
we continue to make ongoing improvements to our core services. 
This year, we optimized our prescribed absentee voting forms to 
improve clarity and usability. We updated the Voting Assistance 
Guide and our interactive training modules for use by the 
military and Department of State voting assistance officers as 
well as our State and local election officials.
    Also in 2013, FVAP provided an additional round of research 
grants to 11 States and localities. These grants funded two 
research areas: the first, the effect of online blank ballot 
delivery; and the second explores the efficiencies of providing 
a single State-wide point of contact for our military and 
overseas voters.
    Madam Chairman, members of the committee, thank you for the 
opportunity to speak with you today about our efforts in the 
2012 election cycle as well as the upcoming 2014 election. 
Voting is an individual's choice and personal responsibility, 
and FVAP is committed to providing the best voting assistance 
possible to those who want to vote, whether they are studying 
abroad, fighting downrange, or serving on U.S. soil.
    Thank you, and I look forward to our discussion and 
answering your questions.
    [The statement of Mr. Boehmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you both so very, very much. I 
appreciate your testimony.
    Secretary, I was trying to take a couple notes when you 
were talking, particularly when you mentioned you had 6,429 
ballots sent overseas, 96 percent returned, and only 265 not 
counted. First of all, hats off. That is a fantastic number. A 
lot of States would love to have those kind of percentages. So 
that is really a tribute to you and your staff and all of your 
election officials through Nevada that you have that kind of 
percentage.
    Then I was also taking a couple of notes as you were 
talking about some specific recommendations, which, as I told 
the both of you before we started the hearing, really, that is 
really one of the impetuses for this hearing and something that 
I want to--and I know all the members of this committee share a 
commitment to not just hearing about best practices and various 
things that have happened but what else can we do, particularly 
as a committee, to assist in every way. So I am always looking 
and taking notes when have you have some specific ideas.
    One about the Military Postal Service. I guess, for some 
reason, I hadn't really thought too much about that before 
until you were talking, Secretary, about that the troops 
couldn't get confirmation of their ballots once they were put 
into the Military Postal Service and how the Military Postal 
Service should be able to integrate better with the civilian 
postal service.
    And since I have both of you two experts right here at this 
table talking to one another about how that--could you expand 
on that a little bit maybe so that I can understand exactly 
what we might be able to do and how the Department of Defense 
with their Military Postal Service could help with that?
    Mr. Miller. Thank you, Chairman Miller.
    Yes, one of the common complaints about the overseas and 
absentee voting process was that the tracking and confirmation 
mechanisms in place with the local election offices were not 
sufficient. Several military members reported some frustration 
that they had attempted to communicate with their local 
election office but had not received any acknowledgment or 
confirmation that their communication had been received--in 
other words, that they attempted to register to vote or 
requested an absentee ballot and hadn't gotten any confirmation 
from the local election officials.
    And so the recommendation is to enhance those systems. 
Notably, in 2010, FVAP provided grants to a number of States, 
Nevada included, in order to enhance our systems so that we 
could do just that. Unfortunately, the timeline that was 
provided under the grants was very limited. And, in many 
instances, the restrictions on the grants did not allow us to 
integrate it into our legacy systems. And so many of those 
projects and initiatives were not continued.
    And that is, in fact, the case in Nevada. We had a superb 
system that was put in place for the 2010 election under a very 
tight timeline, but because of the limitations with the grant, 
we weren't able to expand it to future elections. And that is 
unfortunate. We would like to build a system that would 
integrate with our system so that we could take advantage of 
those services.
    The other recommendation with regard to enhancing 
coordination with the Military Postal Service and State and 
local election officials is that the military has a very 
sophisticated system, the AMP System, the Automated Military 
Postal System, which logs data as to where those ballots are in 
the system. That information to date, to my awareness, is not 
shared with local or State election offices. And if we had that 
information, that would obviously help us prepare for the 
number of ballots that could be headed our way so that we could 
more efficiently run the election. And I think, through that 
coordination, obviously, we would see significant results.
    The Chairman. I appreciate that.
    Mr. Boehmer, maybe you could comment on that. I am just 
thinking, as the Secretary is talking, perhaps you can't share 
that information because you don't want to let everybody know 
where everybody is at sometimes, as well. That may be some 
reason. I am not sure. What is the reason?
    Mr. Boehmer. I can certainly share that information with 
the Director of the Military Postal Service Agency.
    From what I know, they are actually working on a couple of 
new efforts. It is a partnership with the United States Postal 
Service as well as with the Department of State. It is called 
the MILPARS. And it takes the Postal Address Redirection System 
that we all currently use--it is that little yellow sticker 
that you get on mail when someone has moved. They are 
coordinating that system now for military addresses, both 
military post offices and diplomatic post offices.
    So I know that MPSA is working on this issue, they are 
working it in partnerships. But I certainly can pass that 
information on to the Director of MPSA.
    The Chairman. Okay. I appreciate that.
    Also, Director Boehmer, first of all, the Inspector General 
had a somewhat critical report, actually, on the progress of 
establishing installation voting assistance offices at all the 
individual military facilities. And I am just wondering if you 
could talk a little bit about that.
    And then I will then ask the Secretary, when had you your 
opportunity to be overseas talking to our brave men and women, 
what was their thought about actually having a voter assistance 
station there? Like, for instance, if you were in Bahrain with 
the Fifth Fleet, were they more interested in using this 
electronic, as you were mentioning about--I think you called it 
the CAC card, that you are using in Nevada, were they more 
interested in improving on that?
    But, first of all, in regard to the IG report.
    Mr. Boehmer. Absolutely.
    The installation voter assistance offices were determined 
and established before the 2012 election. I think the issue 
that the IG faced is they used outdated contact information on 
our Web site to try to reach out to the installation voter 
assistance offices. When we were made aware of outdated contact 
information, we quickly corrected that and then worked with the 
installation voter assistance offices on a weekly basis to make 
sure that that contact information stayed up to date.
    As you are aware, in military environments, personnel 
change. There are deployments and transfers and new 
assignments. So keeping up-to-date contact information can be a 
challenge with military personnel.
    But we took that seriously; we addressed the problem 
quickly. And we are happy to see that, in the IG's most recent 
report, they actually concurred with the services' IG findings 
that all of the services' voting assistance activities, 
including the installation voter assistance offices, were 
compliant.
    If I could take a moment, too----
    The Chairman. Sure.
    Mr. Boehmer [continuing]. I think it is important to 
realize that these installation voter assistance offices are 
just one of the many resources that our military members have 
at their disposal for information.
    So if I am a type of person that wants to receive 
information in person, I have that as a resource, but I also 
have my unit voting assistance officer, who really is in the 
front lines of voting assistance. If I am an 18-year-old 
military member and very comfortable going online for my voting 
assistance, I can use all the tools and resources that we have 
at fvap.gov. I mentioned our call center. We are able to send 
our servicemembers more than 18 million emails over the course 
of the election cycle reminding them of key dates.
    So the installation voting assistance offices are just one 
of the many resources----
    The Chairman. Right.
    Mr. Boehmer [continuing]. That our servicemembers have 
available to them.
    The Chairman. Particularly, as you say, when they are so 
mobile, you also mention about PSAs, and I thought, well, how 
are you getting a PSA to somebody who that is up in the 
mountains of Afghanistan? Unless you have----
    Mr. Boehmer. We actually use Armed Forces Network to do 
that for us. We had great success using----
    The Chairman. Good.
    Mr. Boehmer [continuing]. That station, particularly during 
the Super Bowl season, which we know that is of particular 
interest to military members. So those public service 
announcements have been very beneficial to us.
    The Chairman. Very good. Good.
    Secretary, again, what was your experience as you have 
actually talked eyeball-to-eyeball with the customers, if you 
will, the users of these systems? And what was their thought 
about having something there physically or being able to use 
electronically to a greater degree? 
    Mr. Miller. Thank you, Chairman Miller.
    The issue of installation voting assistance office outreach 
was a significant issue for this delegation because it had been 
the subject of recent scrutiny. And during our interaction with 
military personnel, there was a general lack of awareness of 
the presence of specific voter assistance offices at any given 
installation.
    But, notably, there was also specific feedback given to us 
that that wasn't the most effective use of resources. You have 
to remember that many of the military men and women that are 
serving over there are 18 to 24 years old; they are more 
accustomed to using technology. It is also the demographic that 
is least likely to become politically engaged.
    The feedback that we heard was that these voting 
installation offices weren't convenient for them and it is not 
the means that they wanted to be outreached to. And so, again, 
their preference was to be able to register to vote online to 
the extent possible and for those ballots to be able to be 
transmitted to them electronically, along with being able to 
transmit it back to the local election offices electronically.
    And so, in our report, we suggested that if that program is 
to be continued that there be some examination as to the 
efficacy of maintaining brick-and-mortar installation offices 
at any facility.
    The Chairman. Well, I appreciate that.
    The chair recognizes the ranking member.
    Mr. Brady. Thank you, Madam Chairman.
    I guess it must be tough because general elections are 
always the same date; primaries, State by State, are different, 
and the rules are different. And, you know, we have our men and 
women over there, you know, in harm's way, and I am sure that 
they have a lot and their commanders have a lot more on their 
mind than who they are voting for or not voting for. But it 
still is their right. I mean, they are fighting for our rights, 
and I want to make sure and hope to make sure--I know that you 
have been. I was reading over your statements and what both of 
you are doing to make sure that we assure that right.
    How do we help you? Do we need to do something State by 
State, because every State is different? Do we need to do 
something uniformly to be able to make that easier?
    And we talked about electronic, maybe the Internet voting. 
I know there is a so-called pilot program that--I mean, it 
isn't like they are living--or they are not in town that day or 
they are not feeling well or they are 60 years old. I mean, we 
know where they are at and we know what they are doing. And I 
just think that maybe there should be some kind of--I don't 
like to use the word ``exception,'' but there should be some 
type of something that we could do, you know, to make sure that 
they have that right and it is available for them. Whether they 
choose to use it or not, you know, that is another issue 
completely but not under our control, nor your control.
    You are right at the front lines with this here, State-wide 
and national, you know. Anything we can do to make sure that we 
can give them every ability, if it needs to be an ability? I 
mean, like you mentioned, they are all younger. They are not my 
age, that I have to learn a little bit and get my 7-year-old 
grandson to get me out when I am stuck with the--I have a good 
story to tell you, but that is for another day--but when I am 
stuck on the computer.
    But is there something we could do to make it more 
available and more easier and make it--because you hear the 
horror stories, you know, about that.
    I mean, either one of you, or both.
    Mr. Miller. Thank you, Ranking Member Brady.
    One, I would note that you have helped significantly. 
Obviously, the passage of the MOVE Act was the biggest 
barrier--addressed the biggest barrier that military and 
overseas voters faced, which was the timely delivery of the 
ballots.
    The delegation that I went on in the Middle East was the 
second such delegation of Secretaries of State. There was one 
in 2008, and that was their primary recommendation. What was 
it? The troops reported that even though they had requested 
ballots in a timely manner, they weren't transmitted in a 
timely manner in order for them to get the ballots back to 
them.
    And so we have made significant enhancements. The 
recommendations that we have provided in the report, I 
personally believe, would be of great value and should be 
further explored.
    In 2008, the troops indicated, as they did during this 
delegation's tour, that their preferred method of voting is 
through an electronic transmission of ballot delivery. We have 
made specific recommendations as to how that could happen.
    The other significant recommendation, I think, that is 
going to make it easier for members of the military and 
overseas voters to vote is, again, trying to look at ways where 
we could provide more individualized content to absentee voters 
about the rules and process that they need to follow in order 
to get their ballots in a timely manner.
    Again, I think the FVAP portal is outstanding. It provides 
wizard technology where, if you walk through, it will guide you 
State by State, help select your jurisdiction and your 
residency, and provide you with the timelines that are 
necessary and how you can request that ballot, how to register 
to vote, et cetera.
    But what we heard from troops is they are busy. Oftentimes, 
this isn't the highest priority for them. The limited free time 
that they have, they want to be on Facebook, Skyping with their 
family. And this is still a cumbersome process.
    There are, obviously, agencies within the Federal 
Government that know the residencies of these troops. If we 
were able to share that information with State and local 
election officials, I can guarantee that, as big of a priority 
as it is for chief elections officers across this country, we 
would then be able to provide individualized content that was 
tailored for that individual so that they wouldn't have to go 
through this cumbersome wizard tech process in order to figure 
out the rules and regulations.
    We could spell it out for them. Say, it looks like you live 
in Nevada, and in Nevada we have online voter registration. And 
if you go to this direct Web site, you can not only register to 
vote but you can request your ballot and ship it back to us 
immediately.
    If we offered that, I think it would remove one of the 
significant barriers there appear to be for military and 
overseas voters.
    Mr. Boehmer. Sir, thank you.
    I also agree with Secretary Miller that you have already 
done a lot. We certainly have made great strides, and, as 
Secretary Miller said, we still have a lot more things that we 
can do.
    The issue that we are working on are two of the big issues 
that face our voters as they navigate through the absentee 
voting process, and that is the issue of time and then 
complexity. You know, each State, different rules. Our voters, 
you know, they have to be able to figure that out.
    Secretary Miller mentioned, if we knew which jurisdiction 
our military members were actually voting in, we could actually 
target communications. And we all know, in the marketing world, 
if you are able to target your customer, you are able to 
deliver better information to them.
    The problem is the Department of Defense doesn't have that 
information. So I agree, if we could find that information and 
bring that in, it would be a resource that not only the States 
could use but that the Department of Defense could use, as 
well.
    Elections are complex; they are certainly not impossible. 
And, as Secretary Miller said, our voters are young, they are 
inexperienced. They do want to use online technology. And we 
are lucky, with our grant program, to have been able to offer 
the States grants for online blank ballot delivery. And I think 
that, working with the States and seeing some of the results 
over the 5-year grant period, we should be able to make some 
really good recommendations.
    So thank you.
    Mr. Brady. Thank you.
    So what I understand is probably education, communication, 
you know, and some information that they may be able to 
receive, that we can make it easier for them to know that--you 
know, as you said, and I can certainly imagine, voting for 
somebody is not the most priority that is on their mind when 
they have a minute or 2 from not being out in the front lines 
out there.
    But to let them know, I guess--again, the problem is the 
State-wide--I mean, every State is a different timeframe. I may 
be sitting next to a friend of mine and he may have missed his 
timeframe and I may not. And, I mean, so I guess the 
information is, like, most important too.
    When a ballot is received and the proper ID or whatever, 
proper box is not checked off, that ballot just gets tossed 
away? There is no provisional? There is no timeframe where we 
can allow them to fix it or go back to it? If I submit an 
absentee ballot and I don't have the proper ID and then 
somebody rules that--probably State-wide, I guess--rules that 
invalid, there is no provisional or anything? We have 
provisionals in the State of Pennsylvania. There is no 
provisional?
    Again, I hate to--if somebody goes through that process, 
and they go through and they vote at the right and proper time, 
or maybe they miss a day or 2 or don't check a proper box, I 
would be a little disturbed knowing I am over here fighting for 
somebody, you know, protecting their rights, and they are not 
protecting my rights because I was a day or 2 late or I didn't 
put on that my ID is who I am, it is written here. And, God 
forbid, if I come home disabled or not come home at all, they 
will know my ID then.
    What happens with that? I mean, is there anything we could 
do to provisionally help them?
    Because I get that. I get people that have been over in 
harm's way and come back and said that they were denied to 
vote, for me specifically, because they didn't check a box, you 
know. And whether they wanted to vote for me or not, I think we 
should make sure that that can happen for them.
    Mr. Miller. Thank you, Ranking Member Brady. I think that 
is an issue that every State is exploring. And every State, 
obviously, has different standards in terms of the procedures 
that must be followed in order for that ballot to be counted.
    In Nevada, we do have some rejection of the ballots. I 
discussed it in my testimony. Ninety-six percent of the ballots 
were, in fact, counted. Many of the ones that were not counted 
were not received in time. So they have to be received by 
Election Day in order to be counted. There were some instances 
of ballots that were not counted because they weren't signed on 
the ballot where you require a signature in order to verify the 
identity of the voter that is attempting to cast ballots; and 
some for a handful of other reasons.
    You know, I think the issue could certainly be explored, to 
your point, about providing additional leeway or flexibility. 
Because members of the military and overseas voters often don't 
have the time or the resources to be able to come in as a voter 
in State would be able to do and correct a ballot that may be 
cast provisionally.
    Mr. Brady. Your absentee ballots in the State of Nevada 
have to be in on Election Day?
    Mr. Miller. Yes.
    Mr. Brady. What happens if they came in the next day or 2? 
I mean, and, again, they did it properly, they did it at the 
right time, they met the deadline when they had to sent it out. 
Through no fault of their own, again.
    If it comes, like--Election Days are Tuesdays--if it comes 
on Wednesday or Thursday, there is nothing you could do to be 
helpful for somebody that is overseas? Not somebody that is at 
another location and just didn't feel like being home that day.
    Mr. Miller. Ranking Member Brady, I will double-check the 
statute, but my recollection is it has to actually be received 
by Election Day in order to be counted.
    Mr. Brady. Because in Pennsylvania our ballots, absentee 
ballots, come in days later, because they are collected at the 
polling place and they come in later or they are counted later 
or whatever.
    And I am not saying that Nevada should be different. I am 
just saying that, anything we could do to enhance it? If 
somebody does the right and proper things, and then the mail or 
whatever--maybe they didn't pick up the mail on Tuesday, maybe 
they pick it up on Thursday, and they are 2 days late, I just 
think it is a shame to have them, the men and women over there 
fighting for us, not to be able to have their vote counted.
    But I appreciate both of you for coming, and I appreciate 
your participation in making this a better place for them. 
Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you. I thank the gentleman.
    And the chair now recognizes the gentleman from Georgia, 
Dr. Gingrey.
    Mr. Gingrey. Madam Chairman, thank you.
    Representative Brady certainly had some very good 
questions. In my hometown of Marietta, Georgia, we just had 
mayoral and city council elections. And one of the city council 
members, who is a good friend of mine that I served on the 
school board with way back when I started into politics, lost 
by one vote. And she was an incumbent and had served on the 
school board and city council. And they did a recount, and she 
still lost by one vote. So it is over. So, I mean, one vote 
counts.
    And when my good friend, Mr. Brady, Representative Brady, 
said, you know, especially these members of the military, they 
have a provisional ballot that doesn't get counted, that that 
is not right. And their vote I won't say is more important than 
anybody else's vote, but, as he pointed out, they are at the 
tip of the spear. They give the rest of us the opportunity to 
have the right to vote.
    And I am just sitting here thinking, we marked up and 
passed H. Res. 77. Maybe in the competition one of these young 
people, with developing apps, can help you guys, can figure 
out--and that will be the prize winner.
    But, obviously, you are doing a great job, but, you know, 
there are things that need to be improved, as you have alleged 
and admitted to. And, certainly, we will continue to work on 
that.
    Well, let me ask a couple of questions. Secretary Miller, 
first I will ask you. Local jurisdictions may not be as 
familiar with the MOVE Act requirements, are less able to keep 
up with changing regulations, but are simultaneously tasked 
with running elections. Despite this, Secretaries of State are 
legally responsible for compliance with election law, causing 
some concern that their offices may be the target of a DOJ 
enforcement action.
    How can we better educate local jurisdictions about 
compliance? And what can State officials like yourself do both 
to better educate local jurisdictions like the cities and the 
counties and to protect themselves from costly legal disputes?
    Mr. Miller. Thank you, Dr. Gingrey. Again, Secretary of 
State Ross Miller from Nevada.
    You know, that may have been a more significant issue when 
the MOVE Act was first implemented. Speaking only from my 
perspective in Nevada, the local election officials are acutely 
aware of those deadlines. They work very closely with our 
office to ensure that those ballots are timely transmitted in 
time for the 45-day deadline and are fully aware of the fact 
that, should we fail to meet that deadline, the DOJ would come 
in with a fairly significant hammer.
    We had one local jurisdiction in the 2010 election that had 
an issue with their printer, and they had some 30-some ballots 
that were not transmitted within that 45-day deadline. We 
worked aggressively to make sure that all of those voters did, 
in fact, receive their ballots and, I think, resolved the 
situation to the Department of Justice's satisfaction.
    The issue that you pointed to, I think, is a good one, that 
on paper it seems like a good idea to hold the chief elections 
officer responsible for compliance with the MOVE Act, but the 
bottom line is that these local election officers don't work 
for the Secretary of State, in most instances. And so, while we 
can work to encourage them to try to meet the deadline, there 
really isn't much of a hammer.
    I don't think that any of those local election offices, at 
least in Nevada, are deliberately ignoring those timelines. 
Sometimes we have court challenges, we have other issues that 
come up that prevent us from being able to timely transmit 
those ballots. But it is a high priority, and it is Federal 
law. And I think, at this point, at least speaking from Nevada, 
we have done an outstanding job. We didn't have any issues in 
2012.
    Mr. Gingrey. Oh, your numbers are fantastic.
    Let me go to Director Boehmer.
    An April 2013 report by the Department of Defense Inspector 
General, IG, noted that FVAP had data on its activities but 
little data on the effects of those activities. The IG 
recommended that FVAP develop and track metrics of the 
effectiveness of its programs.
    What progress has been made on developing these metrics, 
and when do you expect them to be implemented?
    Mr. Boehmer. Sir, thanks for the question.
    As you noted, the IG did make a recommendation for us to 
enhance our current metrics as well as develop new ones to show 
program effectiveness.
    As an assistance agency, we want to make sure that we are 
collecting the appropriate metrics and that FVAP is accountable 
under those metrics for the activities that we are actually 
responsible for. In order to help us with that, we actually 
engaged with a federally funded research and development center 
to take a look at what our responsibilities are and what are 
the appropriate metrics that would help with looking at 
effectiveness.
    We are currently right in the middle of that effort now. I 
am looking at seeing preliminary results from their work in the 
beginning of 2014, and we are hoping that we can have something 
to share with the Hill and your staff late spring.
    Mr. Gingrey. Madam Chairman, you have been very generous 
with the gavel. Can I go back to Secretary Miller for one 
last----
    The Chairman. Sure.
    Mr. Gingrey. Thank you.
    Secretary Miller, you mentioned in your testimony that your 
office has taken advantage of legislation that will allow 
military and overseas voters to use electronic and digital 
signatures on election documents and to request, mark, and 
deliver a ballot to their county without the need of a printer 
or a scanner.
    Can you tell us more about the system you are working on to 
allow voters to mark and return ballots using this electronic 
signature method? And do you see, in particular, any security 
or voter integrity risk associated with the move in that 
direction?
    Mr. Miller. Thank you again, Dr. Gingrey.
    You know, our report when we returned clearly noted, again, 
that the preferred method of voting was the electronic 
transmission of the ballot. And that was the same feedback that 
the 2008 delegation had received.
    One of the issues that we explored in some depth in order 
to get around some of those security concerns is that the 
members of the military use a Common Access Card. And that card 
is unique to each individual that is within the military. They 
cannot log on to their system, as I understand it, without the 
use of that card, which further requires a PIN number to be 
entered. And so there is a high level of authentication in 
terms of who is on the other end of that computer terminal.
    And so, when I returned from this delegation tour, we went 
the next legislative session and changed the statutes to allow 
for the electronic transmission--not only the electronic 
transmission of the ballot, but for them to be able to fill out 
that ballot electronically and retransmit it to the local 
election officials using that Common Access Card.
    It is a process that the members of the military are very 
familiar with. Anytime they need to sign a document, they do so 
by attaching a digital signature through that system. In fact, 
as I understand it, they fill out their Federal tax forms using 
that same system, attaching that digital signature. The emails 
are encrypted. And so it clearly meets military standards for 
the safeguards that are in place.
    And so that is an issue that we explored, and we are, in 
fact, implementing it for the 2014 election. And so the way 
that all will work is, any member of the military or overseas 
voter would be able to register online to vote, because we are 
an online voter registration State. We will authenticate the 
identity of that voter by checking their driver's license 
number, the last four of their Social Security number, and 
their date of birth, and register them to vote.
    Then, moving through the next part of that process, we 
would send them their individualized ballot according to their 
precinct. They would be able to fill that out. It would then 
generate a PDF, which is the exact same way that the ballots 
were previously transmitted, encrypt it, and send it to the 
local election official, where they could then further 
authenticate the identity of that ballot and, should any 
questions arise, obviously, take the appropriate recourse.
    Mr. Gingrey. All right. Thank you both very much.
    The Chairman. The chair now recognizes the gentleman from 
California, Mr. Vargas.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
it.
    I do want to follow some of the questions. First of all, 
thank you again for being here. Thank you for the work that you 
did. And I was happy to see that you are attempting to reduce 
the number of ballots that haven't been counted.
    I do have to say that I am--I was in politics, and I left 
politics for a while, went back to private practice. And then I 
ran for the State Senate, and I won by a whopping 22 votes. 
However, at the end of the counting of the votes, I had only 
won by 12. What had happened was that there was a process that 
wasn't followed in one of the counties whereby about 12,000 
ballots were appropriately brought to the post office but the 
post office didn't deliver them to the registrar of voters. So 
they just sat on the deck there of the post office, 12,000 of 
them, about 500 in my particular area, the way the thing was 
set up.
    And I had already won, I had already won by 12 votes, but 
my opponent went to court to say that those 12,000, and in 
particular those 500, should be counted. And I agreed with 
that. I agreed. I thought, you know, I had read a lot of the 
letters that had been sent. There were a number of military 
personnel who said, ``That is not fair. I did what I was 
supposed to do. I voted. I took my ballot down to the post 
office on time. They forgot to deliver it to the registrar of 
voters.''
    And so I didn't challenge that. I thought, well, they are 
right, you know? If I lose, I lose. I mean, I have already won, 
but, you know, it is the right thing to do. I had lost in that 
county, so I thought I was going to lose. But, you know, I 
think it is the right thing to do, and God always helps out 
those who try to do the right thing. But, anyway, so I just 
thought, I will do it. Turns out, I got another 10 votes out of 
it, so I won with a whopping--I almost doubled my victory. I 
always like to say I won by double digits. It was only 22 
votes.
    But I do think that if, you know, there is some 
technicality like that, especially service personnel and our 
military, that we ought to bend over backwards to make sure 
that those votes are counted. I don't think that that is fair 
at all. Again, I have had that personal experience, and I just 
think you have to count those votes.
    You know, I have been to Afghanistan, too, also, to see how 
these poor guys and gals are out there defending our liberties, 
our freedoms. And for some technicality for their vote not to 
be counted, like that post office that, you know, the delivery 
guy just forget to take it to the registrar--they always had 
done it every year. The guy just forgot to do it, left it out 
there on the dock.
    If you could comment on that?
    Mr. Miller. Thank you, Mr. Vargas. Again, Ross Miller, 
Secretary of State, for the record.
    I don't know when this occurred. But what I can tell you, 
at least from the observations of the delegation, was that this 
is the highest priority for the military in order to be able to 
transmit these ballots. I think that the military clearly 
recognized, along with local and State election officials, that 
we had a problem and that, you know, many of these ballots that 
had been cast by our military and overseas voters weren't 
transmitted in time. And so they worked very aggressively to 
address that and, I think, have done an outstanding job.
    In fact, the U.S. Central Command issued a regulation, 
Regulation 2564, that mandates that absentee ballots shall be 
afforded the most expeditious handling and transmission 
possible. As I stated, they commonly refer to this as the fact 
that ballots go before beans and bullets in the priority of 
transportation of assets, that they walked us through ad 
nauseam the process of the military postal system. I saw more 
about the postal system than I think I wanted to see in tour 
after tour. And pointed out that, with every ballot, the 
military postal system applies an express mail service, Label 
11-DOD, to each ballot from an overseas servicemember. And so 
what that means is that that is the highest priority within the 
postal system, is getting those ballots back in time so that 
the local election offices can count those.
    I don't think that was in place before the previous 
delegation tour and, clearly, in prior elections when we 
realized that we may have a problem with the timely delivery of 
ballots. But I think they have largely corrected it, or at 
least that is the hope.
    Mr. Vargas. Okay. Great.
    And I look forward to that app. I think that is a good 
idea, Doctor, that these students come up with an app so we can 
have the technology.
    So thank you.
    Thanks again, Madam Chair.
    The Chairman. Thank you. We are going to start calling you 
``Landslide Vargas'' over there. But that is interesting, 
because the Senate districts in California are larger than the 
congressional districts, so to win by 22 votes even after that, 
that is----
    Mr. Brady. Double digits.
    The Chairman. Double digits. That is something.
    The chair now recognizes Representative Rokita from 
Indiana, former Secretary of State.
    Mr. Rokita. I thank the chair.
    And I thank the witnesses for their testimony here today.
    Mr. Boehmer--is that how you pronounce it? 
    Mr. Boehmer. Yes.
    Mr. Rokita. I appreciate your leadership over at what we 
lovingly call FVAP. And thank you for you and your whole team's 
continued work. I haven't had a chance to meet or work with 
staff members and leaders of any agency here, yet in Congress, 
that I think met the level of professionalism and 
sophistication and care for what their job was, than I did when 
I got to work as former Secretary of State with FVAP. So thank 
you.
    Secretary Miller, thank you for being here, as well. It is 
good to see you. You remind me of older and simpler times, but 
definitely good times.
    Very interested to learn a couple things from you. How many 
other States accept the Common Access Card method of doing 
things? Do you happen to know? I don't mean to put you on the 
spot, but you are the NASS president, and with that paycheck 
comes extreme responsibility, sir, to know all these things.
    Mr. Miller. Thank you, Congressman Rokita, for indeed 
putting me on the spot as the former NASS president.
    Mr. Rokita. I would be interested to know. Yes.
    Mr. Miller. And it is a pleasure to have a question from my 
former mentor, a fine mentor at the National Secretaries of 
State Association.
    I can't give you the specific figures as to how many States 
employ the use of the Common Access Card. I don't think many 
do. But there are a couple of States that will at least allow 
for the electronic transmission of the ballots back to the 
election offices.
    Notably, Montana has a system in place that is similar to 
Nevada's. That is where we copied our legislation from, along 
with Washington. And my understanding is that both of those 
States have seen enormous success. They have seen higher 
participation rates among the members of the military as a 
result of that.
    I know that there are some vendors in the room today, in 
fact, that have this technology and have really worked to try 
to capitalize on marketing that towards other offices, should 
they want to take advantage of it.
    Mr. Rokita. Thank you, Ross.
    Thinking back to our time together and remembering things I 
was concerned about--and this is new information to me, but I 
am very interested in it and intrigued by it--what are the 
distractions from this process? What would a hardliner like 
Rokita have thought, back when he was Secretary of State, about 
the Common Access Card and its vulnerabilities? Or would I have 
loved it?
    Mr. Miller. Well, that is another difficult question, 
Congressman Rokita, as to what you would have thought of it. 
But I think----
    Mr. Rokita. It sounds great----
    Mr. Miller [continuing]. Some of the reservations that were 
pointed out in 2008, along with 2012, is that with what is 
commonly referred to as Internet voting, there would be all 
kinds of problems with security. And I think maybe many 
Secretaries of State across the country would acknowledge that.
    The use of the Common Access Card, I think, largely 
resolves a lot of the concerns that people may have with it, 
because you can definitively identify the other individual on 
the other end of the terminal.
    Mr. Rokita. Yes.
    Mr. Miller. Clearly, there may be some concerns about how 
appropriately the email is encrypted when it goes back to the 
election office so that it couldn't be grabbed out there in 
cyberspace and in any way manipulated and have somebody----
    Mr. Rokita. You are dangerously walking close to another 
hearing, so--the subject matter of another hearing.
    Mr. Miller. But, you know, this is a system that is in 
place in the military. It clearly meets their needs where they 
deal with issues of high-level national security, and so I 
think it should be explored.
    Clearly, in Nevada, we are comfortable with it. Our 
legislation, despite the fight we are a significant 
battleground State, it passed in an overwhelmingly bipartisan 
fashion when we walked through the security protocols with the 
transmission of the ballots.
    Mr. Rokita. That is great to hear. Thank you for your 
leadership at NASS, too.
    By the way, I was able to weasel myself onto that first 
trip in 2008, and it was an amazing trip. A lot of what you 
described in your report was similar to what we found, as your 
testimony indicates.
    The priority, as I remember it--and correct me if I am 
wrong--was that the ballots came only second to, unfortunately, 
bodies. It was bodies first, then ballots. That is what we were 
told, and that is what we saw, fortunately and unfortunately.
    Do you have any different recollection or different 
observation than that? 
    Mr. Miller. I don't. That may very well be the case. I know 
through their regulation it says it is given the highest 
priority, but there may well be a legitimate and understandable 
exception for----
    Mr. Rokita. Absolutely.
    Mr. Miller [continuing]. The transmission of bodies back to 
the U.S.
    Mr. Rokita. Here is--and I would hope that the Chairman 
would just give me a little bit of time with the gavel here.
    The Chairman. Certainly.
    Mr. Rokita. A question for both of you, and then I will be 
quiet.
    I don't remember the answer to this or if there is an 
answer to this, but let's assume there was a servicemember in 
Indiana, lived in Indiana his or her whole life. At the age of 
18, enlisted. Trained, let's say, in Georgia. Then may have, 
right before deployment, gone to Nevada, to one of your bases. 
Where is this person supposed to vote?
    Mr. Miller. Thank you. I will take a stab at this, although 
it is not my area of expertise. And I think it may depend upon 
Federal law. But my understanding is that that voter can 
designate the residency of their choice. And so, if they wanted 
to, they could designate that their residency is in Nevada.
    By default, as I understand it, their residency is their 
last residence as of their deployment date. And this ties in to 
some of the complexities with local and State election offices 
being able to identify that voter's residence so that we could 
send that individualized communication.
    But one of the things that I still do not understand, in 
terms of those barriers, is that somewhere in the Federal 
Government, you have to know where our troops live. Somebody 
knows. And if they have that information, why can't they share 
it with FVAP and the local and State election offices so that 
we would be able to provide that communication so that they 
wouldn't be left to guess as to which jurisdiction they live in 
and what those rules and procedures are.
    Mr. Rokita. That is an excellent assignment, I think, 
perhaps, for us. So thank you for that.
    Matt. 
    Mr. Boehmer. Before I start answering your question, thank 
you very much for the compliment to the FVAP staff. I am 
honored to be in this position but more honored to work with a 
highly dedicated team of experts and professionals who do 
nothing but all day make sure that our military members, their 
families, and overseas citizens do have the voting assistance 
that they need and deserve. So thank you, sir, for that 
recognition.
    Where a military member votes is incredibly complex. And as 
we talk about one of the challenges even for a servicemember, 
him or herself, that could be a question that they ask. On our 
Web site, we do have some guidance to them. And it certainly 
can be their legal residence. For some who are young, it could 
be their home of record. As you know----
    Mr. Rokita. Do States determine this still, by and large? 
Or is there a Federal statute that----
    Mr. Boehmer. Actually, the military member would determine 
that. They can actually change their legal residence.
    So, as you can tell, because this is a very mobile 
population, changing addresses is something that is complex. 
And it is something that we try to help our military members 
and their families with, again, providing them with that 
information and awareness about what their legal State of 
residence could be and then asking them to work with their JAG 
officers, their legal counsel in their units to help them 
determine what that residence actually is.
    So we will give them some guidance and some advice, but it 
is almost that that bottom-line answer is: Consult your legal 
person in your unit; they should be able to help you figure 
this out.
    Mr. Rokita. I thank the Chair for her indulgence.
    The Chairman. Thank you very much.
    And I certainly just want to thank--does the ranking member 
have any further questions? No? Okay.
    I just want to thank our witnesses again, both of you, for 
coming so very, very much. It has been, I think, a very good 
hearing. I know I have taken a couple of notes, talking to my 
staff here in the back, that we want to take a look at, in 
particular, this Military Postal Service. And, particularly, 
Mr. Vargas talking about all the mail left out on the tarmac 
there, so to speak, of the postal service, and what we can do 
to coordinate that better. That is a great suggestion, 
something we maybe can take a look at, as well.
    And I also have been, just as Mr. Rokita--I mean, I 
listened to this CAC card and thought, well, I don't know how 
that would work, but yet it sounds like something that has 
worked, that your State legislature has agreed to in a 
bipartisan way. And so it is something that really, I think, 
merits looking into, as well, and is very interesting, as well.
    But I, again, just want to thank you all very much. And I 
hope you continue to look at this committee as a resource both 
for FVAP and NASS, as well. And I know you have the executive 
director of NASS that is in the audience here today, as well, 
who does a remarkable job, Leslie Reynolds.
    And this committee really wants to work very closely with 
the Secretaries and all of our customers, particularly those in 
the military, to make sure that we do everything that we 
possibly can to expedite their voting rights and assistance in 
however we can. We are always looking for input and 
suggestions, comments on how we can better that process, 
certainly.
    So thank you very much for your attendance today. Look 
forward to working with you.
    The committee now stands adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
